                    AUDIT REPORT

Officer Compensation for
Calendar Year 2013
   May 28, 2014




                  Report Number FT- AR-14-011
                                                                        HIGHLIGHTS

                                                                       May 28, 2014
                                                          Officer Compensation for
                                                                Calendar Year 2013
                                                        Report Number FT-AR-14-011
BACKGROUND:
The Postal Accountability and                 accepted relocation incentive bonuses
Enhancement Act of 2006 (Postal Act of        totaling $39,000 in calendar year 2013.
2006) amended 39 U.S.C and revised
the cap on total compensation payable         Officials were not initially aware of the
to U.S. Postal Service employees. As a        requirement and acknowledged they
result of this revision, the Postal Service   should have obtained the agreements,
could not pay an employee more than           which ensures officers reimburse the
$199,700 for calendar year 2013.              Postal Service if they separate after
Exceptions allow some employees               receiving a relocation bonus and before
annual compensation of up to $230,700         completing a minimum of 12 months of
with a Board of Governors approved            employment. Because of our audit,
bonus or reward program and allow             management took the appropriate
employees in critical positions to have       corrective action to address the issue.
annual compensation of up to $276,840.
                                              WHAT THE OIG RECOMMENDED:
Compensation includes annual salary,          Because management took corrective
merit lump sum payments, bonuses,             action, we are not making any
awards, and annuity payments.                 recommendations. We will continue to
                                              monitor management’s compliance with
Our objective was to determine whether        Postal Service policy.
the Postal Service complied with the
Postal Act of 2006, Postal Service            Link to review the entire report
policies and guidelines, and IRS
regulations for compensating officers in
calendar year 2013.

WHAT THE OIG FOUND:
Although the Postal Service complied
with the Postal Act of 2006 and calendar
year 2013 IRS regulations, it did not
comply with policies requiring an officer
who accepts a relocation incentive
bonus to sign an employment
agreement.

Specifically, management did not obtain
signed 12-month employment
agreements for both officers who
May 28, 2014

MEMORANDUM FOR:            JEFFERY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND EXECUTIVE
                           VICE PRESIDENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Officer Compensation for
                           Calendar Year 2013 (Report Number FT-AR-14-011)

This report presents the results of our audit of Officer Compensation for Calendar Year
2013 (Project Number 14BG005FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michelle V. Lindquist, acting
director, Finance, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Officer Compensation for Calendar Year 2013                                                                        FT-AR-14-011




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Relocation Incentive Bonus ............................................................................................. 2

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7
Officer Compensation for Calendar Year 2013                                                         FT-AR-14-011



Introduction

This report presents the results of our audit of calendar year (CY) 2013 compensation
paid or deferred 1 to officers 2 of the U.S. Postal Service (Project Number
14BG005FT000). The objective of the audit was to determine whether the
Postal Service complied with the Postal Accountability and Enhancement Act of 2006
(Postal Act of 2006), Postal Service policies and guidelines, and IRS regulations for
CY 2013 compensation paid to officers. See Appendix A for additional information about
this audit.

The Postal Act of 2006 amended 39 U.S.C. and revised the cap imposed on total
compensation payable to Postal Service employees. Compensation includes annual
salary, merit lump sum payments, 3 bonuses, awards, and annuity payments. Table 1
explains the three compensation levels for CY 2013. 4

                              Table 1. CY 2013 Compensation Levels

                                                                                                  Dollar
Level                                       Description                                           Limit
    I     No officer or employee shall be paid compensation at a rate in excess                 $199,700
          of the rate for Level I of the Executive Schedule under §5312 of Title 5
          [39 U.S.C. §1003(a)].
    II    The Postal Service may establish one or more programs to provide                      $230,700
          bonuses or other rewards to officers and employees of the Postal
          Service in senior executive or equivalent positions. Under any such
          program, the Postal Service may award a bonus or other reward in
          excess of the limitation set forth in the last sentence of §1003(a), if
          such program has been approved. Any such award or bonus may not
          cause the total compensation of such officer or employee to exceed
          the total annual compensation payable to the vice president under
          §104 of Title 3 as of the end of the calendar year in which the bonus
          or award is paid. If the Postal Service wishes to have the authority to
          award bonuses or other rewards in excess of the limitation set forth in
          the last sentence of §1003 (a), the Postal Service shall make an
          appropriate request to the Board of Governors (Board), and the Board
          shall approve any such request if the Board certifies, for the annual
          appraisal period involved, that the performance appraisal system for
          affected officers and employees of the Postal Service (as designed
          and applied) makes meaningful distinctions based on relative
          performance. [39 U.S.C. §3686(a) & (b)].


1
  Compensation credited but not distributed in CY 2013.
2
  Defined in this report as Postal Career Executive Schedule II employees.
3
  The performance-based lump sum payment is included as part of the Postal Service’s National Performance
Assessment Program (or its annual pay-for-performance incentive program).
4
  In CY 2013, all seven officers who received compensation in excess of Level I were designated as critical
employees, meaning that Level III is the applicable cap. No officer exceeded the Level III cap.
                                                          1
Officer Compensation for Calendar Year 2013                                                             FT-AR-14-011




                                                                                                     Dollar
    Level                                     Description                                            Limit
     III     Notwithstanding any other provision of law, the Board may allow                       $276,840
             up to 12 officers or employees of the Postal Service in critical
             senior executive or equivalent positions to receive total
             compensation in an amount not to exceed 120 percent of the total
             annual compensation payable to the vice president under §104 of
             Title 3 as of the end of the calendar year in which such payment is
             received. For each exception made under this subsection, the
             Board shall provide written notification to the director of the Office
             of Personnel Management (OPM) and Congress within 30 days
             after the payment is made setting forth the name of the officer or
             employee involved, the critical nature of his or her duties and
             responsibilities, and the basis for determining that such payment is
             warranted [(39 U.S.C. §3686(c)].
Source: 39 U.S.C. §§1003(a) and 3686(a) (b) and (c).

Postal Service officers may receive additional benefits not subject to the compensation
cap, including increased annual leave exchange hours, free financial counseling,
parking, life insurance, health benefits, and other perquisites. 5

Conclusion

Although the Postal Service complied with the Postal Act of 2006 and IRS regulations, it
did not always comply with approved officer benefits policies 6 requiring an officer to sign
an employment agreement when accepting a relocation incentive bonus. 7

Specifically, management did not obtain signed, 12-month employment agreements for
both officers who accepted relocation incentive bonuses totaling $39,000 in CY 2013.
Management was not initially aware of the requirement and acknowledged these
agreements should have been signed to ensure officers reimburse the Postal Service if
they separate after receiving a relocation bonus and before completing a minimum of
12 months of employment. Because of our audit, management took appropriate
corrective action to address the issue.

Relocation Incentive Bonus

Management did not obtain a signed employment agreement from either officer who
received a relocation incentive bonus. 8 The CY 2013 bonuses totaled $39,000.
Postal Service officials told us they were not aware of the requirement. The policy
allows the Postal Service to authorize a relocation incentive bonus in addition to other

5
  The Postal Service offers driver and personal security services through the U.S. Postal Inspection Service to the
postmaster general.
6
  Officer Recruitment, Relocation, Retention and Separation Benefit, dated September 11, 2006.
7
  This bonus is designated for officer candidates or incumbents who relocate to accept a position in a different
commuting area due to difficulty filling the position.
8
  Thirty-four officers were active as of December 13, 2013.

                                                          2
Officer Compensation for Calendar Year 2013                                                        FT-AR-14-011



relocation benefits 9 provided the officer signs a 12-month service agreement before
receiving the bonus. Service agreements ensure officers reimburse the Postal Service if
they separate after receiving the bonus and before completing a minimum of 12 months
of employment.

During our audit, we communicated these two instances of non-compliance to
management. As a result, management obtained a signed employee agreement for one
officer 10 still within 12 months of the reassignment effective date. However,
management did not obtain a signed agreement for the second officer 11 who had
already served 12 months in the new position. In the future, management agreed to
ensure officers sign 12-month service agreements before they receive relocation
incentives.

We are not making any recommendations in this report since management took
corrective action during our audit; however, we will continue to monitor compliance with
Postal Service policy.

Because we are not making any recommendations, management chose not to formally
respond to this report.




9
  Relocation benefits include advance house hunting, temporary quarters, move to new location, shipment of
household goods, storage, real estate expenses, miscellaneous expense relocation allowance, mortgage interest
differential, loss of equity on sale of old residence, tax assistance, and shared appreciation loan.
10
   Reassignment was effective October 19, 2013.
11
   Reassignment was effective January 12, 2013.

                                                        3
Officer Compensation for Calendar Year 2013                                         FT-AR-14-011



                             Appendix A: Additional Information

Background

The Postal Act of 2006 amended 39 U.S.C. and imposed guidelines on total
compensation for the Postal Service. Compensation includes annual salary, merit lump
sum payments, bonuses, awards, and annuity payments. Under this provision, the total
compensation is established at three levels:

   The first cap provides that no officer or employee may be paid compensation at a
    rate in excess of the rate for Level I of the Executive Schedule. This limit was set at
    $199,700 for CY 2013.

   With Board approval, however, the Postal Service may develop a program to award
    a bonus or other reward over the compensation cap, as long as the total annual
    compensation paid to the officer is not above the total annual compensation payable
    to the vice president of the U.S. at the end of the calendar year in which the bonus
    or award is paid. In approving any such program, the Board must determine that the
    bonus or award is based on a performance appraisal system that makes meaningful
    distinctions based on relative performance. This compensation cap was $230,700
    for CY 2013. The Postal Service annually reports total compensation for any officer
    that exceeds Level I of the Executive Schedule in the Comprehensive Statement on
    Postal Operations.

   In addition, the Board may allow the Postal Service to pay up to 12 of its officers or
    employees in critical senior executive or equivalent positions total annual
    compensation of up to 120 percent of the total annual compensation payable to the
    vice president of the U.S. as of the end of the calendar year in which such payment
    is received. This compensation cap was $276,840 for CY 2013.

The policy for officers’ recruitment, relocation, retention, and separation benefits was
last updated and approved by the Board on September 11, 2006. This policy authorizes
relocation incentive bonuses of up to 50 percent of the annual rate of basic pay per year
of the agreement, up to 100 percent of basic pay, for officers who must relocate to
accept a position in a different commuting area. To offer this type of bonus, the Postal
Service must determine that it would be difficult to fill the position without it. Additionally,
an employee must sign a 12-month service agreement in order to receive a relocation
bonus.

The Postal Act of 2006 requires written notification to the OPM and Congress of each
senior executive or equivalent position designated as critical.




                                               4
  Officer Compensation for Calendar Year 2013                                                    FT-AR-14-011



  On January 30, 2014, the Board reported the following positions as critical for CY 2013:

        Postmaster general and chief executive officer.
        Deputy postmaster general.
        Chief financial officer and executive vice president.
        Chief operating officer and executive vice president.
        Chief Human Resources officer and executive vice president.
        Chief Marketing and Sales officer and executive vice president.
        Chief information officer and executive vice president.
        General counsel and executive vice president.
        President of Digital Solutions.

  Postal Service officers may receive additional benefits that are not subject to the
  compensation cap, including increased annual leave exchange hours, free financial
  counseling, parking, life insurance, health benefits, and other perquisites. Also, in
  certain cases, officers have contractual incentive benefits that, when not tied to any
  performance goals or measures, are subject to the compensation cap in the year they
  are earned.

  In certain cases, the Postal Service entered into agreements to provide executive
  retention bonuses that could take the form of deferred compensation. As shown in
  Table 2, two active and four former officers have outstanding deferred compensation
  balances.

              Table 2. Cumulative Deferred Compensation as of December 31, 2013

                                                                        Cumulative
             Officer                         Name                     Deferred Balance       Status
            1                       Joseph Corbett                              $140,667      Active
            2                       Patrick R. Donahoe                              8,134     Active
            3                       John E. Potter                               640,116     Inactive
            4                       Ross Philo                                   571,851     Inactive
            5                       Anthony J. Vegliante                         67,400 12   Inactive
            6                       Paul E. Vogel                                62,627 13   Inactive
Total Deferred Balance                                                        $1,490,795
Source: Eagan Accounts Payable System (EAPS).




  12
       Cumulative deferred balance is zero, as of this report date.
  13
       Cumulative deferred balance is zero, as of this report date.

                                                                5
Officer Compensation for Calendar Year 2013                                   FT-AR-14-011



Objective, Scope, and Methodology

The objective of our audit was to determine whether the Postal Service complied with
the compensation cap, Postal Service policies and guidelines, and IRS regulations for
CY 2013 compensation of officers. To achieve our objective we:

   Interviewed Postal Service personnel.
   Reviewed Postal Service policies and guidelines.
   Reviewed compensation information from payroll systems.
   Reviewed bonus, award, and deferred compensation information from EAPS.
   Reviewed IRS guidelines for reporting wages and taxes.
   Reviewed the employment agreement of one officer.

We conducted this performance audit from December 2013 through May 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on May 14, 2014, and because we did
not make recommendations, management did not provide comments.

We relied on computer-generated data from payroll systems and EAPS for testing
compensation, awards, bonuses, and annual leave exchanges. We assessed the
reliability of this data by reviewing existing information about the data and the system
that produced them and using advanced data analysis techniques to test data gathered
from these systems. We also performed specific internal control and transaction tests,
including tracing selected information to supporting source records. As such, we
determined this data to be sufficiently reliable for the purpose of this report.




                                              6
Officer Compensation for Calendar Year 2013                                   FT-AR-14-011



Prior Audit Coverage

                                                         Final
                                                        Report           Monetary
          Report Title             Report Number         Date              Impact
Officer Compensation for
 Calendar Year 2012                  FT-AR-14-005        2/4/2014           None
Report Results:
Although the Postal Service complied with IRS regulations for CY 2012, it did not
always comply with annual officer compensation caps as required by the Postal Act
of 2006 or its own internal policies and guidelines for leave approval. This occurred
because management previously misinterpreted the Postal Act of 2006. We
identified three officers whose compensation exceeded the caps by $142,075.
Further, management agreed to follow new criteria that addressed the issues
discussed in our report. Since these criteria were developed in CY 2013,
subsequent to the compensation period reviewed, we did not make any
recommendations.

 Officer Compensation for
 Calendar Year 2011                FT-AR-13-001        10/19/2012         $110,011
Report Results:
We identified three officers whose compensation exceeded or otherwise did not
comply with the compensation caps imposed by the Postal Act of 2006. As a result,
during CY 2011, the Postal Service paid $110,011 above the caps. We
recommended management coordinate with the Board to ensure the Postal Service
reports to the OPM and Congress a complete list of critical senior executive or
equivalent positions. We also recommended management request an interpretation
from the Government Accountability Office (GAO) on whether annuity payments are
considered in an employee’s total compensation and subject to the Postal Act of
2006 compensation caps. Management was responsive to both recommendations
and acknowledged the fundamental disagreement with the interpretation of the law.
It agreed to contact the Department of Justice, Office of Legal Counsel,
rather than the GAO, to resolve the issues identified. We agreed that an advisory
opinion from the Office of Legal Counsel would better resolve all the issues.




                                              7
Officer Compensation for Calendar Year 2013                                  FT-AR-14-011




                                                       Final
                                                      Report
          Report Title              Report Number      Date         Monetary Impact
Officer Compensation for
Calendar Year 2010                   FT-AR-11-011      9/23/2011          $59,174
Report Results:
The Postal Service did not always comply with the cap and IRS regulations. An
officer exceeded the cap because he received a retention bonus that was not tied to
performance. The Postal Service also did not report Social Security wages or
withhold and pay taxes on deferred compensation for one officer and did not timely
report Medicare wages or withhold and pay taxes on deferred compensation
for one prior and four current officers. We recommended management develop and
implement policies and procedures to ensure adherence to the cap, report and pay
the correct amount of Social Security and Medicare wages and taxes owed,
establish accounts receivables for officers’ portions of Social Security and Medicare
taxes on deferred compensation, and modify the Postal Service’s payroll system to
calculate Social Security and Medicare taxes on deferred income. Management
disagreed that the Postal Service exceeded the cap but agreed to link enhanced
compensation to performance in current and future agreements. Management
agreed to the remaining recommendations.




                                              8
